Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




      MEDICARE COMPLIANCE
            REVIEW OF
     MERCY MEDICAL CENTER IN
           DES MOINES
       FOR CALENDAR YEARS
          2009 AND 2010

  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Patrick J. Cogley
                                               Regional Inspector General

                                                      November 2013
                                                      A-07-12-05028
                        Office of Inspector General
                                        https://oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
             at https://oig.hhs.gov/

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                     EXECUTIVE SUMMARY

Mercy Medical Center in Des Moines did not fully comply with Medicare requirements for
billing outpatient and inpatient services, resulting in overpayments of approximately $573,000
over more than 2 years.

WHY WE DID THIS REVIEW

This review is part of a series of hospital compliance reviews. Using computer matching, data
mining, and data analysis techniques, we identified hospital claims that were at risk for
noncompliance with Medicare billing requirements. For calendar year (CY) 2011, Medicare
paid hospitals $151 billion, which represents 45 percent of all fee-for-service payments;
therefore, the Office of Inspector General must provide continual and adequate oversight of
Medicare payments to hospitals.

The objective of this review was to determine whether Mercy Medical Center in Des Moines (the
Hospital) complied with Medicare requirements for billing outpatient and inpatient services on
selected claims.

BACKGROUND

The Centers for Medicare & Medicaid Services (CMS) pays for hospital outpatient services on a
rate-per-service basis that varies according to the assigned ambulatory payment classification.
CMS pays inpatient hospital costs at predetermined rates for patient discharges. The rates vary
according to the diagnosis-related group (DRG) to which a beneficiary’s stay is assigned and the
severity level of the patient’s diagnosis. The DRG payment is, with certain exceptions, intended
to be payment in full to the hospital for all inpatient costs associated with the beneficiary’s stay.

The Hospital is an 802-bed acute care hospital located in Des Moines, Iowa. Medicare paid the
Hospital approximately $292 million for 277,157 outpatient and 27,073 inpatient claims for
services provided to beneficiaries during CYs 2009 and 2010 based on CMS’s National Claims
History data.

Our audit covered $8,202,585 in Medicare payments to the Hospital for 557 claims that we
judgmentally selected as potentially at risk for billing errors. These claims consisted of 155
outpatient and 402 inpatient claims. Of the 557 claims, 523 claims had dates of service in CYs
2009 or 2010, and 34 claims (involving outpatient and inpatient manufacturer credits for
replaced medical devices) had dates of service in CYs 2008 or 2011.

WHAT WE FOUND

The Hospital complied with Medicare billing requirements for 466 of the 557 outpatient and
inpatient claims we reviewed. However, the Hospital did not fully comply with Medicare billing
requirements for the remaining 91 claims, resulting in overpayments of $573,331 for CYs 2009
and 2010 (77 claims) and CYs 2008 and 2011 (14 claims). Specifically, 35 outpatient claims had
billing errors, resulting in overpayments of $391,126, and 56 inpatient claims had billing errors,


Medicare Compliance Review of Mercy Medical Center in Des Moines (A-07-12-05028)                 i
resulting in overpayments of $182,205. These errors occurred primarily because the Hospital did
not have adequate controls to prevent the incorrect billing of Medicare claims within the selected
risk areas that contained errors.

WHAT WE RECOMMEND

We recommend that the Hospital:

    •   refund to the Medicare contractor $573,331, consisting of $391,126 in overpayments for
        35 incorrectly billed outpatient claims and $182,205 in overpayments for 56 incorrectly
        billed inpatient claims, and

    •   strengthen controls to ensure full compliance with Medicare requirements.

AUDITEE COMMENTS AND OUR RESPONSE

In written comments on our draft report, the Hospital partially agreed with our first
recommendation. The Hospital disagreed with our finding regarding 18 outpatient claims that
involved the replacement of medical devices. Specifically, the Hospital said that it would have
been inaccurate to report the “FB” modifier on these 18 claims and that our finding regarding
these claims was an incorrect application of Medicare payment policy. The Hospital agreed with
our findings and recommendations for the remaining claims and, with respect to both of our
recommendations, described corrective actions that it had taken.

After reviewing the Hospital’s comments, we maintain that all of our findings and
recommendations are valid. Medicare payment policy regarding the reporting of manufacturer
credits for replaced medical devices is clear and specific as to the devices in question.




Medicare Compliance Review of Mercy Medical Center in Des Moines (A-07-12-05028)              ii
                                                    TABLE OF CONTENTS


INTRODUCTION .........................................................................................................................1

       Why We Did This Review .....................................................................................................1

      Objective ................................................................................................................................1

      Background ............................................................................................................................1
          The Medicare Program ..................................................................................................1
          Hospital Outpatient Prospective Payment System ........................................................1
          Hospital Inpatient Prospective Payment System ...........................................................1
          Hospital Claims at Risk for Incorrect Billing ................................................................2
          Medicare Requirements for Hospital Claims and Payments .........................................2
          Mercy Medical Center in Des Moines ..........................................................................3

      How We Conducted This Review ..........................................................................................3

FINDINGS .....................................................................................................................................3

      Billing Errors Associated With Outpatient Claims ................................................................4
            Manufacturer Credits for Replaced Medical Devices Not Reported ............................4
            Incorrectly Billed Healthcare Common Procedure Coding System Codes ...................4
            Incorrectly Billed Observation Services........................................................................4

       Billing Errors Associated With Inpatient Claims ..................................................................5
             Incorrectly Billed as Inpatient .......................................................................................5
             Manufacturer Credits for Replaced Medical Devices Not Reported ............................6
             Incorrectly Billed as Separate Inpatient Stays ...............................................................6
             Incorrectly Billed Diagnosis-Related Group Codes ......................................................6
             Unsupported Charges ....................................................................................................7
             Incorrect Source-of-Admission Code............................................................................7

RECOMMENDATIONS ...............................................................................................................7

AUDITEE COMMENTS...............................................................................................................8

OFFICE OF INSPECTOR GENERAL RESPONSE ....................................................................8

APPENDIXES

        A: Audit Scope and Methodology .......................................................................................9

        B: Results of Review by Risk Area ...................................................................................11

        C: Auditee Comments ........................................................................................................12

Medicare Compliance Review of Mercy Medical Center in Des Moines (A-07-12-05028)                                                             iii
                                             INTRODUCTION

WHY WE DID THIS REVIEW

This review is part of a series of hospital compliance reviews. Using computer matching, data
mining, and data analysis techniques, we identified hospital claims that were at risk for
noncompliance with Medicare billing requirements. For calendar year (CY) 2011, Medicare
paid hospitals $151 billion, which represents 45 percent of all fee-for-service payments;
therefore, the Office of Inspector General (OIG) must provide continual and adequate oversight
of Medicare payments to hospitals.

OBJECTIVE

Our objective was to determine whether Mercy Medical Center in Des Moines (the Hospital)
complied with Medicare requirements for billing outpatient and inpatient services on selected
claims.

BACKGROUND

The Medicare Program

Medicare Part A provides inpatient hospital insurance benefits and coverage of extended care
services for patients after hospital discharge, and Medicare Part B provides supplementary
medical insurance for medical and other health services, including coverage of hospital
outpatient services. The Centers for Medicare & Medicaid Services (CMS) administers the
Medicare program.

CMS contracts with Medicare contractors to, among other things, process and pay claims
submitted by hospitals.

Hospital Outpatient Prospective Payment System

CMS implemented an outpatient prospective payment system (OPPS), which is effective for
services furnished on or after August 1, 2000, for hospital outpatient services. Under the OPPS,
Medicare pays for hospital outpatient services on a rate-per-service basis that varies according to
the assigned ambulatory payment classification (APC). CMS uses Healthcare Common
Procedure Coding System (HCPCS) codes and descriptors to identify and group the services
within each APC group. 1 All services and items within an APC group are comparable clinically
and require comparable resources.

Hospital Inpatient Prospective Payment System

CMS pays hospital costs at predetermined rates for patient discharges under the inpatient
prospective payment system (IPPS). The rates vary according to the diagnosis-related group

1
 HCPCS codes are used throughout the health care industry to standardize coding for medical procedures, services,
products, and supplies.


Medicare Compliance Review of Mercy Medical Center in Des Moines (A-07-12-05028)                             1
(DRG) to which a beneficiary’s stay is assigned and the severity level of the patient’s diagnosis.
The DRG payment is, with certain exceptions, intended to be payment in full to the hospital for
all inpatient costs associated with the beneficiary’s stay. In addition to the basic prospective
payment, hospitals may be eligible for an additional payment, called an outlier payment, when
the hospital’s costs exceed certain thresholds.

Hospital Claims at Risk for Incorrect Billing

Our previous work at other hospitals identified these types of claims at risk for noncompliance:

    •   outpatient and inpatient manufacturer credits for replaced medical devices,

    •   outpatient and inpatient claims paid in excess of charges,

    •   outpatient claims billed with observation services that resulted in outlier payments,

    •   outpatient claims billed with Doxorubicin Hydrochloride,

    •   outpatient claims billed with modifiers,

    •   inpatient short stays,

    •   inpatient same-day discharges and readmissions,

    •   inpatient claims billed with high severity level DRG codes,

    •   inpatient claims with payments greater than $150,000,

    •   inpatient psychiatric facility (IPF) emergency department adjustments, and

    •   inpatient transfers.

For the purposes of this report, we refer to these areas at risk for incorrect billing as “risk areas.”
We reviewed these risk areas as part of this review.

Medicare Requirements for Hospital Claims and Payments

Medicare payments may not be made for items or services that “… are not reasonable and
necessary for the diagnosis or treatment of illness or injury or to improve the functioning of a
malformed body member” (the Social Security Act (the Act), § 1862(a)(1)(A)). In addition, the
Act precludes payment to any provider of services or other person without information necessary
to determine the amount due the provider (the Act, § 1833(e)).

Federal regulations state that the provider must furnish to the Medicare contractor sufficient
information to determine whether payment is due and the amount of the payment (42 CFR
§ 424.5(a)(6)).


Medicare Compliance Review of Mercy Medical Center in Des Moines (A-07-12-05028)                   2
The Medicare Claims Processing Manual (the Manual) requires providers to complete claims
accurately so that Medicare contractors may process them correctly and promptly (Pub. No.
100-04, chapter 1, § 80.3.2.2). The Manual states that providers must use HCPCS codes for
most outpatient services (chapter 23, § 20.3).

Mercy Medical Center in Des Moines

The Hospital is an 802-bed acute care hospital located in Des Moines, Iowa. Medicare paid the
Hospital approximately $292 million for 277,157 outpatient and 27,073 inpatient claims for
services provided to beneficiaries during CYs 2009 and 2010 based on CMS’s National Claims
History data.

HOW WE CONDUCTED THIS REVIEW

Our audit covered $8,202,585 in Medicare payments to the Hospital for 557 claims that we
judgmentally selected as potentially at risk for billing errors. These claims consisted of 155
outpatient and 402 inpatient claims. Of the 557 claims, 523 claims had dates of service in CYs
2009 or 2010, and 34 claims (involving outpatient and inpatient manufacturer credits for
replaced medical devices) had dates of service in CYs 2008 or 2011. 2 We focused our review on
the risk areas that we had identified as a result of previous OIG reviews at other hospitals. We
evaluated compliance with selected billing requirements but did not use medical review to
determine whether the services were medically necessary. This report focuses on selected risk
areas and does not represent an overall assessment of all claims submitted by the Hospital for
Medicare reimbursement.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

See Appendix A for the details of our scope and methodology.

                                                  FINDINGS

The Hospital complied with Medicare billing requirements for 466 of the 557 outpatient and
inpatient claims we reviewed. However, the Hospital did not fully comply with Medicare billing
requirements for the remaining 91 claims, resulting in overpayments of $573,331 for CYs 2009
and 2010 (77 claims) and CYs 2008 and 2011 (14 claims). Specifically, 35 outpatient claims had
billing errors, resulting in overpayments of $391,126, and 56 inpatient claims had billing errors,
resulting in overpayments of $182,205. These errors occurred primarily because the Hospital did
not have adequate controls to prevent the incorrect billing of Medicare claims within the selected
risk areas that contained errors. For the results of our review by risk area, see Appendix B.


2
 We selected these 34 claims for review because the risk area that involves manufacturer credits for replaced
medical devices has a high risk of billing errors.


Medicare Compliance Review of Mercy Medical Center in Des Moines (A-07-12-05028)                                3
BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 35 of 155 selected outpatient claims, which resulted
in overpayments of $391,126.

Manufacturer Credits for Replaced Medical Devices Not Reported

Federal regulations require a reduction in the OPPS payment for the replacement of an implanted
device if (1) the device is replaced without cost to the provider or the beneficiary, (2) the
provider receives full credit for the cost of the replaced device, or (3) the provider receives
partial credit equal to or greater than 50 percent of the cost of the replacement device (42 CFR
§ 419.45). For services furnished on or after January 1, 2007, CMS requires the provider to
report the modifier “FB” and reduced charges on a claim that includes a procedure code for the
insertion of a replacement device if the provider incurs no cost or receives full credit for the
replaced device. If the provider receives a replacement device without cost from the
manufacturer, the provider must report a charge of no more than $1 for the device. 3

For 30 out of 155 selected claims, the Hospital received full credit for replaced medical devices
but did not report the “FB” modifier and reduced charges on its claims. (Of the 30 claims, 20
had dates of service in CYs 2009 or 2010, and 10 had dates of service in CYs 2008 or 2011.)
These overpayments occurred because the Hospital did not have adequate controls to report the
appropriate modifier and charges to reflect credits received from manufacturers. As a result of
these errors, the Hospital received overpayments of $382,842.

Incorrectly Billed Healthcare Common Procedure Coding System Codes

The Act precludes payment to any provider of services or other person without information
necessary to determine the amount due the provider (the Act, § 1833(e)). The Manual states:
“In order to be processed correctly and promptly, a bill must be completed accurately”
(chapter 1, § 80.3.2.2).

For 3 out of 155 selected claims, the Hospital submitted the claims to Medicare with incorrect
HCPCS codes. The Hospital stated that staff members erroneously transposed numbers in the
HCPCS codes. As a result of these errors, the Hospital received overpayments of $4,773.

Incorrectly Billed Observation Services

Medicare payments may not be made for items or services that “… are not reasonable and
necessary for the diagnosis or treatment of illness or injury or to improve the functioning of a
malformed body member” (the Act, § 1862(a)(1)(A)). The Manual states: “Observation time
begins at the clock time documented in the patient’s medical record, which coincides with the
time that observation care is initiated in accordance with a physician’s order … observation time
ends when all medically necessary services related to observation care are completed” (chapter 4,
§ 290.2.2). The Manual also states: “Observation services must also be reasonable and necessary

3
 CMS provides guidance on how a provider should report no-cost and reduced-cost devices under the OPPS (CMS
Transmittal 1103, dated November 3, 2006, and the Manual, chapter 4, § 61.3).


Medicare Compliance Review of Mercy Medical Center in Des Moines (A-07-12-05028)                        4
to be covered by Medicare” (chapter 4, § 290.1). In addition, the Manual states: “In order to be
processed correctly and promptly, a bill must be completed accurately” (chapter 1, § 80.3.2.2).

For 2 out of 155 selected claims, the Hospital billed Medicare for incorrect units of service for
HCPCS code G0378 (hospital observation services). Specifically, the Hospital billed 255 and
229 units of service when the correct amounts were 80 and 108, respectively. The Hospital
stated that when calculating the observation hours, no consideration was given to the medical
necessity of the excessive observation hours. As a result of these errors, the Hospital received
overpayments of $3,511.

BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 56 of 402 selected inpatient claims, which resulted
in overpayments of $182,205.

Incorrectly Billed as Inpatient

Medicare payments may not be made for items or services that “… are not reasonable and
necessary for the diagnosis or treatment of illness or injury or to improve the functioning of a
malformed body member” (the Act, §1862(a)(1)(A)). Payment for services furnished to an
individual may be made only to providers of services that are eligible and only if, “with respect
to inpatient hospital services ... which are furnished over a period of time, a physician certifies
that such services are required to be given on an inpatient basis for such individual’s medical
treatment ….” (the Act, § 1814(a)(3)). Additionally, Medicare Part A will pay for inpatient
hospital services “… only if a physician certifies and recertifies,” among other things, the
reasons for continued hospitalization” (42 CFR § 424.13(a)).

For 15 out of 402 selected claims, the Hospital incorrectly billed Medicare Part A for beneficiary
stays that should have been billed as outpatient or outpatient with observation services. 4

The Hospital explained that the errors were a result of several causes:

    •   Patient Care Managers were not available to review cases on weekends or after hours.

    •   Inconsistency in physician documentation for the level of care led to misinterpretation of
        the order.

    •   Physicians did not always complete the level of care in the standard order sets.

    •   A knowledge deficit due to the ambiguity of the criteria.


4
 The Hospital may be able to bill Medicare Part B for all services (except for services that specifically require an
outpatient status) that would have been reasonable and necessary had the beneficiary been treated as a hospital
outpatient rather than admitted as an inpatient. We were unable to determine the effect that billing Medicare Part B
would have on the overpayment amount because these services had not been billed and adjudicated by the Medicare
administrative contractor prior to the issuance of our report.


Medicare Compliance Review of Mercy Medical Center in Des Moines (A-07-12-05028)                                5
As a result of these errors, the Hospital received overpayments of $79,008.

Manufacturer Credits for Replaced Medical Devices Not Reported

Federal regulations require reductions in the IPPS payments for the replacement of an implanted
device if (1) the device is replaced without cost to the provider, (2) the provider receives full
credit for the device cost, or (3) the provider receives a credit equal to 50 percent or more of the
device cost (42 CFR § 412.89). The Manual states that to bill correctly for a replacement device
that was provided with a credit, hospitals must code Medicare claims with a combination of
condition code 49 or 50, along with value code “FD” (chapter 3, § 100.8).

For 21 out of 402 selected claims, the Hospital received reportable medical device credits from
manufacturers but did not adjust its inpatient claims with the appropriate condition and value
codes to reduce payment as required. (Of the 21 claims, 17 had dates of service in CYs 2009 or
2010, and 4 had dates of service in CYs 2008 or 2011.) These overpayments occurred because
the Hospital did not have adequate controls to report the appropriate condition and value codes in
order to accurately reflect credits it had received from manufacturers. As a result of these errors,
the Hospital received overpayments of $73,459.

Incorrectly Billed as Separate Inpatient Stays

The Manual (chapter 3, § 40.2.5) states:

        When a patient is discharged/transferred from an acute care Prospective Payment
        System (PPS) hospital, and is readmitted to the same acute care PPS hospital on
        the same day for symptoms related to, or for evaluation and management of, the
        prior stay’s medical condition, hospitals shall adjust the original claim generated
        by the original stay by combining the original and subsequent stay on a single
        claim.

For 2 out of 402 selected claims, the Hospital billed Medicare separately for related discharges
and readmissions that occurred within the same day. The Hospital stated that coding rules are
open to interpretation and, in the cases cited, the coder believed that the claims were not related
and determined that the claims should have been billed separately. As a result of these errors,
the Hospital received overpayments of $14,009.

Incorrectly Billed Diagnosis-Related Group Codes

Medicare payments may not be made for items or services that “… are not reasonable and
necessary for the diagnosis or treatment of illness or injury or to improve the functioning of a
malformed body member” (the Act, §1862(a)(1)(A)). In addition, the Manual states: “In order
to be processed correctly and promptly, a bill must be completed accurately” (chapter 1,
§ 80.3.2.2).

For 2 out of 402 selected claims, the Hospital billed Medicare for incorrect DRG codes. For
each of these two claims, either the principal diagnosis or the procedure code was incorrect. The



Medicare Compliance Review of Mercy Medical Center in Des Moines (A-07-12-05028)                 6
Hospital attributed these errors to coding mistakes. As a result of these errors, the Hospital
received overpayments of $10,748.

Unsupported Charges

The Act states: “[N]o such payments shall be made to any provider unless it has furnished such
information … in order to determine the amounts due such provider … for the period with
respect to which the amounts are being paid ….” (the Act, § 1815(a)).

For 4 out of 402 selected claims, the Hospital submitted claims to Medicare with unsupported
charges, resulting in a higher outlier payment than was warranted. For three claims, the Hospital
billed for medications that were not supported by the medical records. For the other claim, the
Hospital billed for a procedure that was not supported by the medical records. The Hospital
attributed these incorrect claims to human error. As a result of these errors, the Hospital received
overpayments of $4,048.

Incorrect Source-of-Admission Code

CMS increases the Federal per diem rate for the first day of a Medicare beneficiary’s IPF stay to
account for the costs associated with maintaining a qualifying emergency department (42 CFR
§ 412.424). The Manual states that CMS makes this additional payment regardless of whether
the beneficiary used emergency department services; however, the IPF should not receive the
additional payment if the beneficiary was discharged from the acute-care section of the same
hospital (chapter 3, § 190.6.4). The Manual also states that IPFs report source-of-admission code
“D” to identify patients who have been transferred to the IPF from the same hospital (chapter 3,
§ 190.6.4.1). An IPF’s proper use of this code is intended to alert the Medicare contractor not to
apply the emergency department adjustment.

For 12 out of 402 selected claims, the Hospital incorrectly coded the source-of-admission for
beneficiaries who were admitted to the IPF upon discharge from the Hospital’s acute-care
section. The Hospital attributed these incorrect claims to human error. As a result of these
errors, the Hospital received overpayments of $933.

                                      RECOMMENDATIONS

We recommend that the Hospital:

    •   refund to the Medicare contractor $573,331, consisting of $391,126 in overpayments for
        35 incorrectly billed outpatient claims and $182,205 in overpayments for 56 incorrectly
        billed inpatient claims, and

    •   strengthen controls to ensure full compliance with Medicare requirements.




Medicare Compliance Review of Mercy Medical Center in Des Moines (A-07-12-05028)                 7
                                            AUDITEE COMMENTS

In written comments on our draft report, the Hospital partially agreed with our first
recommendation. The Hospital disagreed with our finding regarding 18 outpatient claims that
involved the replacement of medical devices. For each of these claims, the replaced medical
device in question was an implantable cardioverter-defibrillator (ICD), a device that includes
both an impulse generator and a lead wire. Thus, the lead wire is just one component of the
replaced device. The Hospital stated that because it did not receive a credit in the amount of the
full cost of the ICD, it would have been inaccurate to report the “FB” modifier on these 18
claims and, therefore, no payment reduction was necessary. According to the Hospital, our
finding regarding these claims was an incorrect application of Medicare payment policy. 5

The Hospital agreed with our findings and recommendations for the other overpayments that we
had identified and described corrective actions that it had taken in response to both of our
recommendations. With respect to our second recommendation, the Hospital stated that it had
reviewed its billing process in each area to determine how the process could be further improved,
and that it had implemented improvements to ensure future compliance in each area.

The Hospital’s comments appear in their entirety as Appendix C.

                           OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the Hospital’s comments, we maintain that all of our findings and
recommendations are valid. Medicare payment policy regarding the reporting of manufacturer
credits for replaced medical devices is clear and specific as to the devices in question. CMS
lists, in the Federal Register, the devices to which the payment policy on replaced medical
devices applies. 6 This list includes the ICDs that were involved in all 18 of the claims associated
with the finding with which the Hospital disagreed.

Furthermore, CMS has responded to comments on its payment policy that deal with instances
when a hospital receives a full credit for only one component of a pacemaker or ICD
replacement procedure that involves both a lead and a generator. 7 CMS responded by
confirming that the modifier should be assigned to the procedure code and that a payment offset
amount should be applied.




5
    The payment policy in question is called the No Cost/Full Credit and Partial Credit Device Adjustment Policy.
6
    74 Fed. Reg. 60316, 60464 (Nov. 20, 2009) and 77 Fed. Reg. 68210, 68357 (Nov. 15, 2012).
7
 77 Fed. Reg. 68210, 68357 (Nov. 15, 2012). Although this volume of the Federal Register was issued after our
audit period, the language to which we refer here does not establish new policy, but rather, reiterates existing policy.


Medicare Compliance Review of Mercy Medical Center in Des Moines (A-07-12-05028)                                    8
                   APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

Our audit covered $8,202,585 in Medicare payments to the Hospital for 557 claims that we
judgmentally selected as potentially at risk for billing errors. These claims consisted of 155
outpatient and 402 inpatient claims. Of the 557 claims, 523 claims had dates of service in CYs
2009 or 2010, and 34 claims (involving outpatient and inpatient manufacturer credits for
replaced medical devices) had dates of service in CYs 2008 or 2011 (see footnote 2).

We focused our review on the risk areas that we had identified as a result of previous OIG
reviews at other hospitals. We evaluated compliance with selected billing requirements, but did
not use medical review to determine whether the services were medically necessary.

We limited our review of the Hospital’s internal controls to those applicable to the outpatient and
inpatient areas of review because our objective did not require an understanding of all internal
controls over the submission and processing of claims. We established reasonable assurance of
the authenticity and accuracy of the data obtained from the National Claims History file, but we
did not assess the completeness of the file.

This report focuses on selected risk areas and does not represent an overall assessment of all
claims submitted by the Hospital for Medicare reimbursement.

We conducted our fieldwork at the Hospital from March 2012 to March 2013.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed applicable Federal laws, regulations, and guidance;

    •   extracted the Hospital’s outpatient and inpatient paid claim data from CMS’s National
        Claims History file for CYs 2009 and 2010;

    •   obtained information on known credits for replacement medical devices from the device
        manufacturers for CYs 2008 through 2011;

    •   used computer matching, data mining, and other data analysis techniques to identify
        claims potentially at risk for noncompliance with selected Medicare billing requirements;

    •   judgmentally selected 557 claims (155 outpatient and 402 inpatient) for detailed review;

    •   reviewed available data from CMS’s Common Working File for the selected claims to
        determine whether the claims had been cancelled or adjusted;




Medicare Compliance Review of Mercy Medical Center in Des Moines (A-07-12-05028)                 9
    •   reviewed the itemized bills and medical record documentation provided by the Hospital
        to support the selected claims;

    •   requested that the Hospital conduct its own review of the selected claims to determine
        whether the services were billed correctly;

    •   discussed the incorrectly billed claims with Hospital personnel to determine the
        underlying causes of noncompliance with Medicare requirements;

    •   calculated the correct payments for those claims requiring adjustments; and

    •   discussed the results of our review with Hospital officials on March 28, 2013.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Medicare Compliance Review of Mercy Medical Center in Des Moines (A-07-12-05028)                 10
                            APPENDIX B: RESULTS OF REVIEW BY RISK AREA


                                                                                                      Claims
                                                                                   Value of            With            Value of
                                                               Selected            Selected           Over-             Over-
                    Risk Area                                  Claims              Claims            payments          payments
Outpatient
Manufacturer Credits for Replaced Medical
                                                                         44            $989,126                30            $382,842
Devices
Claims Paid in Excess of Charges                                           3              10,038                3               4,773
Claims Billed With Observation Services That
                                                                         10               59,133                2               3,511
Resulted in Outlier Payments
Claims Billed With Doxorubicin Hydrochloride                             73             242,657                 0                  0

Claims Billed With Modifiers                                             25             109,531                 0                  0

 Outpatient Totals                                                      155         $1,410,485                 35            $391,126


Inpatient

Short Stays                                                             248         $1,320,917                 15             $79,008
Manufacturer Credits for Replaced Medical
                                                                         43           1,056,547                21              73,459
Devices
Same-Day Discharges and Readmissions                                     12             244,962                 2              14,009
Claims Billed With High Severity Level
                                                                         41           1,013,401                 2              10,748
Diagnosis-Related Group Codes
Claims With Payments Greater Than $150,000                               10           2,142,484                 4               4,048
Psychiatric Facility Emergency Department
                                                                         27             226,406                12                933
Adjustments
Transfers                                                                15             478,217                 0                  0

Claims Paid in Excess of Charges                                           6            309,166                 0                  0

 Inpatient Totals                                                       402         $6,792,100                 56            $182,205


 Outpatient and Inpatient Totals                                        557         $8,202,585                 91            $573,331

       Notice: The table above illustrates the results of our review by risk area. In it, we have organized outpatient and
       inpatient claims by the risk areas we reviewed. However, we have organized this report’s findings by the types of
       billing errors we found at the Hospital. Because we have organized the information differently, the information in
       the individual risk areas in this table does not match precisely with this report’s findings.



       Medicare Compliance Review of Mercy Medical Center in Des Moines (A-07-12-05028)                                11
                                        APPENDIX C: AUDITEE COMMENTS





          tl\j~[f);;ENTER
           DES MOINES
                                                                                                              I ll 1 6th Ave.
                                                                                                 Des Moines, lA 50314-26 11
                                                                                                              515-247-3 12 1



           A member ofMercy Health Network



           October 4, 2013

           Patrick J. Cogley
           Office of the Inspector General
           Office of Audit Services, Region VII
           601 East 12th Street, Room 0429
           Kansas City, MO 66106

                     Re:       Draft of I-IHS-OIG Audit Services Report Number A-07-12-05028

           Dear Mr. Cogley:

                   Mercy Medical Center - Des Moines appreciates the opportunity to respond to the draft
           report identified above. For over 120 years, Mercy has maintained its commitment to providing
           quality medical care to our patients and to our community. Our values guide us to do what is best
           for our patients while maintaining compliance with the highest standards of care. This commitment
           includes our obligation to process claims for services provided while ensuring compliance with all
           appropriate standards. The OIG review largely validates we have been successful in our efforts to
           ensure fair and accurate billing to the Medicare program. We disagree with one of the audit
           standards, which we discuss below.

                              OIG Audit ofReplacement Medical Devices Applied Incorrect Standard

                  The draft report asserts that modifier FB should have been applied to 30 claims for
           outpatient surgery that involved the replacement of a medical device. We disagree with the audit's
           findings with respect to 18 of those 30 claims. 1

                   Medicare has special payment rules for situations where a medical device manufacturer
           provides a replacement device to a hospital for no-charge or at a significant discount (typically
           because the device failed while under warranty). If the hospital received a replacement device for
           no-charge the hospital must attach modifier FB to its outpatient claim, and Medicare will reduce the
           APC payment by the offset amount related device. If the hospital received a credit for more than
           50% of the cost of the replacement device, the hospital must attach modifier FC to its outpatient
           claim, and Medicare will reduce the APC payment by the partial offset an amount, which is an
           amount based upon a percentage of the device cost. 42 C.F.R. § 419.45; CMS Pub. 100-04, Ch. 4
           § 61.3.

                  For 18 of the claims that the draft report asserts should have been billed with modifier FB,
           the procedure involved the replacement of both the impulse generator of the implantable
           cardioverter-defibrillator (ICD) and a lead wire. The hospital received a credit from the

           1
             For the remaining 12 claims, we agree that each claim should have included modifier FB. We have
           submitted revised bills and refunded the related overpayments for the 12 claims.




Medicare Compliance Review of Mercy Medical Center in Des Moines (A-07-12-05028)                                                12
           manufacturer for the cost of the lead wire, but not for the cost of the impulse generator. The draft
           report asserts that modifier FB should have been attached to these claims because a credit was
           given for the full cost of the lead wire. That position incorrectly applies Medicare payment policy.
           In these 18 cases, the replaced device is the ICD, which includes both impulse generator and its
           lead wires. As such, the lead wire is just one component of the "replaced device." Since the
           hospital did not receive a credit in the amount of the full cost of the ICD, it would be inaccurate to
           include modifier FB on the claim. Further, since the value of the credit for the lead wire was less
           than 50% of the cost of the replacement ICD, it would have been inaccurate to include modifier FC
           on the claim. As such, we are confident that these 18 claims were correctly paid and no payment
           reduction based upon the manufacturer's credit for the lead is appropriate.

                   In sum, we respectfully disagree with the audit findings related to 18 claims involving
           outpatient replacement medical devices. We have not refunded those claims and fully intend to
           appeal.

                           Other OIG Audit of High Risk Areas Found Few and Only Isolated Issues

                   The other claims audited were in select high risk areas (outpatient HCPCS coding,
           observation versus inpatient admission status, readmissions, DRG coding, inpatient outliers that
           include expensive drugs, inpatient medical device credits, and source of admission for inpatient
           psychiatric facility adjustments). Despite that narrow focus, the audit found only a modest number
           of isolated errors and no indication of systl;!mic deficiencies. We acknowledge that the claims
           identified in the draft report were incorrectly paid, and we have submitted refunds for all claims
           identified by the audit (other than the 18 outpatient medical device claims discussed above).
           Further, we reviewed our billing process in each area to determine how our process could be further
           improved, and we implemented improvements to ensure future compliance in each area.

                                                        Conclusion

                   The OIG's audit was not a random audit of all inpatient and outpatient claims, rather the
           audit targeted several high risk areas. As such, the audit is not representative of Mercy's overall
           billing compliance. Indeed, the audit report does not purport to assess overall compliance, rather
           the report acknowledges that it is limited to "selected risk areas." Nonetheless, of the $8,202,585
           payments reviewed, we believe that only $244,688 of the payments were incorrect, which relates to
           a compliance rate that is better than 97%. We have taken steps to further increase that compliance
           rate, but we are pleased to have achieved such an positive outcome in the context of an audit
           targeting only high-risk areas.

                   We appreciate your consideration of the points raised above. Please feel free to contact me
           if you have any questions.




           ~r                    -
             stre    ds,


            obert P. Ritz
           President

           RPR:ds


                                                                                                         46156768.1




Medicare Compliance Review of Mercy Medical Center in Des Moines (A-07-12-05028)                                      13
